LEGAL MAIL
Provided to Wakulla Cl

AUG 10 2021

5588

foFHpfl

IN THE
Supreme Court Of The United States

•\\

Supreme Court, U.S.
FILED

AUG 1 0 2021
OFFICE OF THE CLERK

MICHAEL EDMONDSON,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

Michael Edmondson
pro se — D.C. # D27445
Wakulla C. I.
110 Melaleuca Drive
Crawfordville, FL 32327

QUESTIONS PRESENTED
In this case, the United States Court of Appeals per curiam affirmed denial of
Petitioner’s appeal for habeas corpus relief. Petitioner contends that his request was
“clear and unequivocal” invoking this constitutional right to proceed without
counsel and self-representation under the Sixth and Fourteenth Amendments to the
United States Constitution.
I.

Whether the trial Judge fulfilled his duty of determining
whether there was an intelligent and competent waiver of
accused’s right to assistance of counsel, under the 6th and 14th
Amendments of the United States Constitution.

II.

Whether Petitioner invoked the constitutional right of selfrepresentation under the 6th and 14th Amendments of the United
States Constitution.

III.

Whether the United States Court of Appeals has decided on
important Federal question in a way that conflicts with relevant
decisions of this court’s ruling pursuant to Faretta v. California,
422 U.S. 806 (1975)

li

LIST OF PARTIES
All parties do appear in the caption of the case on the cover page.

RELATED CASES
• Edmondson v. State; No. 2D14-107, District Court of Appeals for the
State of Florida. Judgment entered January 26th, 2016. Mandate
February 29th, 2016.
• Edmondson v. State, No. 8:18-cv-287-T-02 TGW, U.S. District Court
for the State of Florida. Judgment entered July 6th, 2020.
• Edmondson v. Attorney General, et. al., No. 20-12983 DD, U.S. Court
of Appeals, Eleventh Circuit, judgment entered on June 17th, 2021.

iii

I

TABLE OF CONTENTS
Page Number

OPTION BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

A. Statement Of Jurisdiction In The Lower Court In
Accordance With This Court’s Rule 14(l)(g)(ii), And
Suggestion Of Justification For Consideration, As
Suggested Under Rule 10.
B. Statement of Facts
(i) TRIAL

3

(ii) DIRECT APPEAL

4

(iii) HABEAS CORPUS

6

(iv) APPEAL - HABEAS CORPUS

7

REASONS FOR GRANTING WRIT

8

CONCLUSION

12

iv

INDEX OF APPENDICES
Page Number
APPENDIX - A: Decision of the U.S. Court of Appeals
For the Eleventh Circuit...........

1

APPENDIX - B: Decision of the U.S. District Court of Florida

2

APPENDIX - C: Decision of the U.S. Court of Appeals for Rehearing

3

APPENDIX - D: Decision for the District Court of Appeals for the
Second District of Florida.............................

4

v

TABLE OF AUTHORITIES CITED
Cases

Page Number

2020 U.S. direct LEXIS 117537
Adams v. State ex rel. McConn 317 U.S. at 279, 87
Cross v. United States, 893 F. 2d 1287, 1290
Dorman v. Wainwright, 798 F. 2d 1358, 1366 (11th Cir. 1986)
Faretta v. California, 422 U.S. 806 (1975)
Gill v. McCusker, 633 F. 3d 1296
Harrington v. Richter, 562 U.S. 86, 107
Illinois v. Allen, 397 U.S. 337, 350 351
Nelson v. State, 274 So. 2d 256
Raulerson v. Wainwright, 732 F. 2d 803, 808
Tennis v. State, 997 So. 2d 375, 377-78
Westbrook v. Arizona, 384 U.S. 150

1
8
6,10
10
passim
7, 10
7

12
4,5
11
9
5

Statutes and Rules
28 U.S.C. § 1254 (1)
28 U.S.C. § 2254

2
6

Rule 10
Rule 14 (l)(g)(ii)

3
3

Other
Fourteenth Amendment, U.S. Const.
Sixth Amendment, U.S. Const.

2,5,8,9,10
2,5,8,9,10

vi

IN

THE

SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review
the Judgment below.

The United States Court of Appeal for the Eleventh Circuit entered
this matter on April 23rd, 2021, affirming the final order denying
petitioner’s habeas corpus petition entered by the United States District
Court of Florida in and for Hillsborough County, Florida, on July 6th,
2020.

OPINIONS BELOW
The opinion of the United States Court of Appeals appears at Appendix
A to the petition and is unpublished.

The opinion of the United States District Court appears at Appendix B
to the petition and is reported at 2020 U.S. District LEXIS 117537.

1

JURISDICTION
The date on which the United States Court of Appeal decided my case was
April 23rd, 2021.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: June 17th, 2021, and a copy of the order denying
rehearing appears at Appendix C.

The Jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (l).

CONSTITUTIONAL AND STATUTORY PROVISIONS
This case involves the Fourteenth Amendment to the United States
Constitution, reading in relevant part:
“No State shall ... deprive any person of life, liberty, or property,
without due process of law ...”
And the Sixth Amendment to the United States Constitution, reading in
relevant part:
"... The right to proceed without counsel, and the right to Selfrepresentation.”

2

STATEMENT OF THE CASE
A. Statement of Jurisdiction in the lower courts, in accordance with
this Court’s Rule 14(l)(g)(ii), and suggestion of Justification for
consideration, as suggested under Rule 10.
Petitioner Michael Edmondson, is a Florida State prisoner serving a 30-year
sentence for Burglary of an occupied structure (count l). Petitioner filed a timely
appeal to the Fla. 2nd DCA regarding his Faretta1 claim. However, the 2nd DCA
denied the claim without an opinion. Petitioner filed a timely petition for habeas
corpus relief. The petition was denied. Petitioner filed a timely appeal to the
Eleventh Circuit Court of Appeals for the United States. The petition was denied.
This case involves an important federal question that this Court has
consistently established a defendant is entitled to. Specifically, this case concerns a
question whether the basis for the lower court’s decision reflect on important
Federal question in a way that contrary to, or involved on unreasonable application
of clearly established Federal law determined by the Supreme Court when it
rejected Petitioner’s appeal for habeas corpus relief under the precedent in Faretta.
The questions to be determined is whether the Petitioner invoked the constitutional
right of self-representation pursuant to Faretta and whether the trial Judge
fulfilled his duty of determining whether there was an intelligent and competent
waiver of accused’s right to assistance of counsel.
B. STATEMENT OF THE FACTS
(i)

TRIAL- Previous to trial at a hearing on October 24th, 2013, before

Honorable Judge Ficarrotta. The Court heard petitioner’s complaints regarding
3

court-appointed counsel. After hearing from both, the Petitioner and counsel, the
Court found no reason to discharge counsel.
Jury trial was held before Honorable Judge Fuente. On October 28th, 2013,
before Jury selection, petitioner informed the trial court that he wished to “fire”
court-appointed counsel:
[DEFENSE COUNSEL]: Before we bring the Jury out, Your Honor, I
think the defendant wants to address you.
[THE COURT]: What’s, to do what?
[DEFENSE COUNSEL]: He wants to fire me, in his words.
The trial judge asked if Judge Ficarrotta do a Nelson1 hearing and stated
that:
[THE COURT]: So he denied your request to discharge your lawyer.
And I will simply abide by that ruling. I’m not going to rehash it.
Petitioner stated that:
[DEFENDANT]: I will do it on my own if I have to.
[THE COURT]: Do what on your own?
[DEFENDANT]: Go to trial.
The trial Judge maintained that:
[THE COURT] :I’m not going to change the ruling, I’m going to abide by
that ruling.
[DEFENDANT]: So does that mean I’m stuck with him?
[THE COURT]: You are not stuck with him. He’s going to represent
you.

(ii)

DIRECT APPEAL: Petitioner filed a timely Notice of Appeal to the 2nd

DCA of Florida. Petitioner’s counsel argued the following:
4

"Under the United States Supreme Court’s ruling in Faretta, an
-—--- aeeu8ed-rhae^he3right-to—self-representation atnbYial~~A~defendant’s
choice to invoke this right must be honored out of that respect for the
individual which is the lifeblood of the law.” Tennis v. State, 997 So. 2d
375, 377-78 (Fla. 2008). “[T]he Sixth and Fourteenth Amendments
include a constitutional right to proceed without counsel when a
criminal defendant voluntarily and intelligently elects to do so.” Id. At
378.
The court stated that “[U]nder Faretta and our precedent, once an
unequivocal request for self-representation is made, the trial court is obligated to
hold a hearing to determine whether the defendant is knowingly and intelligently
waiving his right to court-appointed counsel.” Id. Also, the court found that “the
trial court’s failure to hold a Faretta hearing is per se reversible error.” Id, at 379.
In this case, like Tennis, Mr. Edmondson requested to represent himself.
After the trial court failed to conduct an adequate Nelson inquiry, Mr. Edmondson
stated that he wished to represent himself “I will do it on my own if I have to.”
(This statement remains quite similar to the defendant’s statement in Tennis- “I’ll
do it myself.”) Any ambiguity in Mr. Edmondson’s statement was resolved when the
trial court asked Mr. Edmondson to clarify his request: “Do what on your own?” Mr.
Edmondson responded and clearly stated that he wished to proceed to trial while
representing himself “Go to trial.” Like Tennis, however, the trial court in this case
failed to address Mr. Edmondson’s request to represent himself the trial court
stated that he would abide by Judge Ficarrotta’s ruling. (Mr. Edmondson never
expressed his desire to proceed pro se before Judge Ficarrotta; therefore, Judge
Ficarrotta, unlike Judge Fuente, was not required to hold a Faretta hearing.) After
this exchange, Mr. Edmondson also asked the trial court the following question: “So
5

does that mean I’m stuck with him?” The trial court replied: “You are not stuck with
him. He’s going to represent you.” The trial court, therefore, again failed to inquire
as to whether Mr. Edmondson wished to proceed pro se,' the trial court simply
stated that counsel would “represent you” without conducting a Faretta hearing and
without clarifying that Mr. Edmondson was not simply “stuck” with Counsel.
Like Tennis, the trial court in this case was obligated to hold a hearing to
determine whether Mr. Edmondson wished to knowingly and intelligently waive his
right to court-appointed counsel.
The 2nd DCA denied petitioner’s Faretta claim, per curiam Affirmed and
issued Mandate. (See Appendix D - Decision of the District Court of Appeals for
Florida)
(iii)

HABEAS CORPUS: Petitioner filed a timely petition to the United

States District Court pursuant to 28 § 2254 habeas corpus relief on his Faretta
claim.
The petition was DENIED and the court decided:
“The obligation to conduct a Faretta hearing is triggered by the
defendant’s “clear and unequivocal assertion of a desire to represent
himself.” See Cross v. United States, 893 F. 2d 1287, 1290 (11th Cir.
1990):
“The State argued on appeal and the appellate court implicitly agreed
by its per curiam affirmance, that petitioner did not make a sufficient,
unequivocal request in the trial record to represent himself. Thus,
Faretta was not triggered. This is correct, and there is no other
invocation of self-representation or request to proceed pro se in this
record.
(See Appendix B - Decision of the United States District Court)
6

Gv)

APPEAL - HABEAS CORPUS: Petitioner filed a C.O.A. and it was

GRANTED. Petitioner filed a timely appeal to the United States Court of Appeals
(11th Cir.) The petition was per curiamIn sum, a finding that Edmondson did not clearly and unequivocally
assert a desire to represent himself “could have supported [ ] the
State’s court decision - See Harrington, 562 U.S. at 102.4 The district
court therefore did not err in concluding that the State appellate
court’s rejection of Edmondson’s Faretta claim was not an
unreasonable application of clearly established Federal law. See Gill,
633 F. 3d at 1296.5 Simply put, Edmondson did not meet his burden of
“showing there was no reasonable basis for the State Court to deny
relief.” See Harrington, U.S. at 98.
AFFIRMED (See Appendix A — Decision of the United States Court of Appeals?)

1 Faretta v. California, 422 U.S. 806 (1975)
2 Nelson v. State, 274 So. 2d 256 (Fla. DCA 1973)
3 Tennis v. State, 997 So. 2d 375, 377-78
4 Harrington v. Richter, 562 U.S. 86, 101 (2011)
3 GUI v. McCusker, 633 F. 3d 1296 (11th Cir. 2011)
7

REASONS FOR GRANTING WRIT
THE QUESTION IS:
I. WHETHER THE TRIAL JUDGE FULFILLED HIS DUTY
DETERMINING WHETHER THERE WAS AN INTELLIGENT AND
COMPETENT WAIVER OF ACCUSED’S RIGHT TO ASSISTANCE OF
COUNSEL UNDER THE SIXTH AND FOURTEENTH AMENDMENTS
TO THE UNITED STATES CONSTITUTION.
(Under Faretta v. California, 422 U.S. 806 (1975) the Supreme Court decided
that the Sixth and Fourteenth Amendments to the United States Constitution
guarantees that a defendant in a state criminal trial has a constitutional right to
proceed without counsel when he voluntarily and intelligently elects to do so.)
1. In this case, petitioner Michael Edmondson expressed his desire to the trial
court seeking to discharge court-appointed counsel right before Jury selection was to
begin. Therefore, the trial Judge was obligated to inquire whether he wished to
persist in discharging his attorney, thereby waiving his right to court-appointed
counsel and exercising his right to self-representation. However, the trial Judge
denied Petitioner’s request to “fire” court-appointed counsel without making any
inquiry at all. The trial Judge stated that he was “abiding by the previous Judge’s
decision”, and that he would not “rehash” the decision. The trial Judge remained
obligated to conduct an inquiry into Petitioner’s reason for seeking to discharge
counsel. Thus, this was a structural defect requiring reversal as per se error.
“Although a defendant need not himself have the skill and experience of
a lawyer in order to competently and intelligently choose self­
representation, he should be made aware of the dangers and
disadvantages of self-representation, so that the record will establish that
he knows what he is doing and his choice is made with eyes open.”
Adams v. State, ex. rel. McCann, 317 U.S. at 279, 87.
8

THE QUESTION IS:
II. WHETHER PETITIONER INVOKED HIS CONSTITUTIONAL
RIGHT OF SELF-REPRESENTATION UNDER THE SIXTH AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES
CONSTITUTION.
1. After the trial Judge rejected petitioner’s request to “fire” court-appointed
counsel, petitioner asserted, “I will do it on my own if I have to.” The trial Judge
asked, “Do what on your own?” Petitioner clearly responded, “Go to trial”.” Thus,
petitioner’s request was unequivocal.
The trial Judge stated, “I’m not going to change the ruling, I’m going to abide
by that ruling.” Petitioner asked, “so does that mean that I’m stuck with him?” The
trial Judge stated, “You are not stuck with him. He is going to represent you.”
Therefore, the trial Judge failed to conduct a Faretta hearing denying
petitioner of his constitutional right to proceed without counsel and conduct his own
defense. See Westbrook v. Arizona, 384 U.S. 150 (“The trial court violated due
process by failing to conduct a hearing or inquiry into the issue of petitioner’s
competency to waive his constitutional right to the assistance of counsel.”) The
Supreme Court vacated a lower court’s ruling because there has been no hearing or
inquiry to waive his constitutional right to assistance of counsel.

9

THE QUESTION IS:
III.

WHETHER THE UNITED STATES COURT OF APPEALS
DECIDED AN IMPORTANT FEDERAL QUESTION THAT
CONFLICTS WITH RELEVANT DECISIONS OF THIS COURT’S
RULING IN FARETTA UNDER THE SIXTH AND
FOURTEENTH AMENDMENTS TO THE UNITED STATES
CONSTITUTION.

1. The United States Court of Appeals decided that, “Edmondson did not clearly
and unequivocally assert a desire to represent himself.” The lower court illustrated
that, “Like Gill, Edmondson’s “isolated comment” about going to trial on his own “if’
he had to was far from a clear statement of his desire or intent to proceed without
counsel.”
This Statement was not “isolated”. This statement about “going to trial, on
his own if he had to” was coupled with petitioner’s unequivocal request to “fire”
court-appointed counsel, thus petitioner’s ‘intent’ was clear. The trial Judge
dishonored this request so petitioner asserted “I will do it on my own if I have to.”
The Trial Judge asked, “Do what on your own?” Petitioner asserted clearly, “Go to
trial.” See Dorman v. Wain might, 798 F. 2d 1358, 1366 (11th Cir. 1986)(“A
petitioner must do no more than state his request either orally or in writing
unambiguously to the court so that no reasonable person can say that the request
was not made.”)
2. The lower Court also illustrated that, “In Cross, Mr. Edmondson’s “if he had
to” statement was not the only evidence on the record.” It was sandwiched between
Edmondson’s complaints about his lawyer. His efforts to secure a substitute counsel
and a prior concession that, “there is no way that I am going to be able to represent
10

myself,” were “compelling evidence” that Edmondson had not made a sufficient
clear and unambiguous invocation of his right to self-representation.
However, the statements that were construed by the lower Court were not
“sandwiched” on the record the day of trial, at the time Petitioner requested to “fire”
his court-appointed counsel and “go to trial”, “on his own”. These statements were in
fact relating to the previous hearing that Judge Ficarrotta held on October 24th,
2013. The lower courts made a “sandwich” to make Petitioner’s request appear
equivocal and ambiguous, adding them in, to the trial record.
3. The lower Court also illustrated that, “Edmondson kept trying to fire his
attorney after he made this solitary remark, rather than unambiguously letting the
State trial court know that he wished to go pro se, thus like Raulerson1 he did not
pursue the matter of self-representation.
However, after the trial Judge denied Petitioner’s constitutional right to
proceed without counsel and represent himself, petitioner staed “So does that mean
that I am stuck with him?” The trial Judge stated: “You are not stuck with him. He
is going to represent you.” The trial Judge, therefore, again failed to inquire as to
whether Petitioner wished to proceed pro seJ the trial Judge simply stated that
counsel would “represent you” without conducting a Faretta hearing forcing courtappointed counsel upon

Petitioner.

Thus,

Petitioner clearly pursued

1 Raulerson v. Wainwright, 732 F. 2d 803, 803 (11th Cir. 1984)
11

his

constitutional right to self-representation diligently. (“... To force a lawyer on a
defendant can only lead him to believe that the law contrives against him. Moreover,
it is not inconceivable that in some rare instances, the defendant might in fact
present his case more effectively by conducting his own defense. Personal liberties
are not rooted in the law of averages. The right to defend is personal. The defendant,
and not his lawyer or the State, will bear personal consequences of a conviction. It is
the defendant, therefore, who must be free personally to decide whether in his
particular case counsel is to his advantage. And although he may conduct his own
defense ultimately to his own detriment, his choice must be honored out of that
respect for the individual which is the lifeblood of the law.) See Illinois v. Allen, 397
U.S. 337, 350-351.
In this case, the Courts erred in forcing Petitioner against his will to accept a
State-appointed public defender and in denying his request to conduct his own
defense. Therefore, there was no reasonable basis for the lower court to deny relief.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully Submitted,
Date

Michael Edmondson

12

